\

XX (K)

NOTICE
This Order was filed under
Supreme Court Rule 23 and is
not precedent except in the
limited circumstances allowed
under Rule 23(e)(1).

2021 IL App (4th) 190166-U
NO. 4-19-0166
IN THE APPELLATE COURT
,/'v \

FILED
January 26, 2021
Carla Bender
4th District Appellate
Court, IL

OF ILLINOIS
FOURTH DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
CORNELIUS L. JONES
Defendant-Appellant.

)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Macon County
No. 08CF1053
Honorable
Jeffrey S. Geisler,
Judge Presiding.

JUSTICE TURNER delivered the judgment of the court.
Presiding Justice Knecht and Justice Steigmann concurred in the judgment.
ORDER

11
.12

Held. The circuit court did not err by denying defendant’s petition for leave to file a
successive.postconviction petition.
In October 2018, defendant, Cornelius L. Jones, filed a pro se motion for leave to

file a successive postconviction petition. In his motion, defendant asserted he did not receive
effective assistance of counsel because trial counsel failed to interview and call to testify his
codefendant, Dorian Harris, who was a State witness. Defendant contended he could not have
raised the claim earlier because Harris was reluctant in providing an affidavit. In January 2019,
the Macon County circuit coufLentered an order denying defendant’s motion for leave to file a
successive postconviction petition.

13

Defendant appeals, contending he did set forth a prima facie case of cause and

prejudice related to his allegation his counsel provided ineffective assistance of counsel by

a
failing to interview and present Harris’s testimony. We affirm.

14
15

I. BACKGROUND
In July 2008, the State charged defendant and Harris by information with six

counts of first degree murder (720 1LCS 5/9-1 (a)(1), (a)(2) (West 2008)) in connection with the
July 23, 2008, death of Benny Topps. In January 2009, the circuit court held defendant’s jury
trial on three counts of first degree murder. The evidence relevant to the issue on appeal follows.

16

Terry Bond, a friend of Benny, testified that, on July 23, 2008, a man with

dreadlocks came to the mechanic shop where he and Benny worked and asked to speak with
Benny. Benny walked out with the man. When the men reached a nearby alley, Bond saw the
man with the dreadlocks raise “a shiny object in his hand.” Bond then heard a shot and then 8 to
10 more shots. Bond then went out and saw Benny lying in the alley. Bond did not observe
anything around the area where Benny was lying. He did not see a weapon. Bond identified
defendant as the man with the dreadlocks.

17

Joe Gipson testified he was at the mechanic shop helping Benny work on cars on

July 23, 2008. He saw a male exit a Cadillac and motion to Benny to come over to him. Gipson
saw Benny walk outside without anything in his hands. Gipson told Benny not to go because he
saw the man had a gun in his hand. Benny told Gipson not to worry about it and “ T got this.
Gipson saw Benny and the man stand and talk at the back of the car. Benny turned around to
walk away when Gipson heard a gunshot. Benny fell, and “the dude came up and finished
shooting him.”

18

Lieutenant Topps, Benny’s brother, testified he and Benny agreed to pick up

cocaine for defendant. Benny traveled to Texas with $45,000 from defendant but returned '
withoufany cocaihe or money. Upon Benny’s return, Lieutenant described Benny as. being

-2-

5

T,

nervous. Lieutenant and his brother discussed giving defendant several vehicles to replace the
lost money.

19

Illinois State Police Trooper Anthony Maro testified he heard a communication

about a shooting in Decatur and the possible suspect vehicle was a gold Cadillac occupied by a
black male with dreadlocks. At approximately 10:40 a.m., Maro executed a traffic stop of a gold
Cadillac occupied by two males. An interior inspection of the car revealed “a live round and a
spent shell casing on the passenger seat.” He also found a black duffel bag containing a
dreadlocks wig and a handgun.

II io

. Dr. John Ralston, a forensic pathologist, testified he performed Benny’s autopsy.

Dr. Ralston observed 10 wounds on the body. He stated the “entrance wounds were located
posturally on his back,” with the possible exception of a wrist wound.
Ill

Defendant testified in his own defense and admitted he had a prior conviction for

drug trafficking with a firearm. Benny and Lieutenant were his step-uncles. When Benny came
to defendant’s mother’s house on previous occasions, defendant saw him with a weapon “[a]II
the time.” Defendant further testified his whole family saw Benny carrying a gun every time he
drove a truck and identified four relatives by name. Defendant denied talking with Benny about
a drug deal, but they did talk about a person in Decatur selling a backhoe. Defendant gave
Benny $34,000 in cash to purchase the backhoe. After Benny did not make the purchase, he.
refused to return defendant’s money. Defendant stated Benny threatened him if he came looking
for his money.
112

On July 23, 2008, defendant and Harris drove to Decatur in a Cadillac, and

defendant brought a gun to protect himself. He stated he kept his dreadlocks hat in the car with
him to wear “every now and then.” Defendant wore the hat when he found Benny in the garage.

-3 -

Defendant carried his gun because of Benny’s prior threat. They then walked to the Cadillac to"
talk because defendant was concerned about the presence of others in the garage. Defendant
stated Benny was “mad and pissed off’ and looked behind defendant “like somebody was
walking up behind [defendant].” This made defendant nervous. Defendant looked back, and
when he turned around, Benny “looked like he was trying to reach for something.” Defendant
thought he was reaching for a gun. Defendant got scared and shot Benny. When asked by
defense counsel if he ever saw a gun, defendant stated that after the shooting, Benny fell and
something “tumbled to the ground.” If defendant had seen a cellular phone in Benny’s hand, he
“probably would have” shot him because of the “way he was reacting.” Defendant shot Benny
until he felt “he wasn’t able to do nothing to [him].” Defendant stated Benny was “trying to take
off running after [hc| started shooting him.” After the shooting, defendant “| h]opped in the car”
and left. During a police interview after the shooting, defendant denied killing Benny. He also
did not tell police that Benny owed him money dr that he came to Decatur to talk about the
backhoe. On cross-examination, defendant testified he did not see Benny with a gun prior to the
shooting.

If 13

Following closing arguments, the jury found defendant guilty of first degree

murder. The jury also found defendant personally discharged a firearm that proximately caused
the death of another during the commissioirof the offense. At a February 2009 sentencing
hearing, the trial court denied the posttrial motion. The court ther\,;,.£ntenced defendant to 35
years in prison for the offense of first degree murder, along with an additional 25-year
enhancement for personally discharging a firearm that proximately caused the death of another
person.

1114

On direct appeal, defendant argued (1) the trial court abused its discretion in

-4-

refusing to instruct the jury on self-defense and (2) the State improperly shifted the burden of
proof during closing argument -This, court affirmed defendant’s conviction and sentence, finding
the trial court did not abuse its discretion in denying defendant’s requested,self-defense
instruction because the evidence indicated defendant was the initial aggressor and the danger of
harm was not imminent. People v. Jones, 393 Ill. App. 3d 1115, 985 N.E.2d 729 (2009) (table)
(unpublished order under Supreme Court Rule 23). This court declined to address the other issue
because defendant did not raise it in his postjudgment motion. Jones, 393 111. App. 3d 1115, 985
N.E.2d 729.

TT15

.
In March 2011, defendant filed a pro se petition for postconviction relief pursuant

to the Post-Conviction Hearing-Act (Postconviction Act) (725 ILCS 5/122-1 et seq. (West
2010)). Therein, defendant alleged, inter alia, his counsel on direct appeal provided ineffective
assistance when he failed to argue the prosecutorial misconduct claim should be reviewed as
plain error and trial counsel was ineffective for failing to present any mitigating evidence at
sentencing, even though defendant had informed him about available witnesses. The circuit
court summarily dismissed defendant’s petition. Defendant filed a motion to reconsider, which
the court denied in October 2012. On appeal, this court affirmed the summary dismissal of
defendant’s original postconviction petition. People v. Jones, 2014 IL App (4th) 121038-U.
H16

,

In November 2,014, defendant filed a pro se motion for leave to file a successive

postconviction petition. See 725 ILCS 5/122-1(0 (West 2014). In his proposed postconviction
petition, defendant claimed (1) he was denied due process when the trial court denied his
motions to suppress, (2) trial counsel was ineffective for not preserving the suppression issue for
appeal, and (3) direct appeal counsel was ineffective for not raising the suppression issue as plain
error. In December 2014, the circuit court denied defendant’s motion for leave to file a

-5 -

successive postconviction petition. Defendant appealed, and this court affirmed the circuit
court’s denial of leave to file a successive postconviction petition. People v. Jones, 2017 IL App
(4th) 141114-U.

1117

In October 2018, defendant fled pro se his second motion for leave to file a

successive postconviction petition. In this motion, defendant assorted he did not receive
effective assistance of counsel because trial counsel failed to interview Harris and call him to
testify. Defendant contended he could not have raised the claim earlier because Harris had been
reluctant in providing an affidavit. Defendant attached Harris’s affidavit to his proposed
successive postconviction petition. In his proposed postconviction petition, defendant also
asserted he received ineffective assistance of (1) trial counsel for failing to preserve defendant’s
prosecutorial misconduct and fourth amendment arguments and (2) appellate counsel for failing
to raise the aforementioned issues as plain error.

11 18

In his affidavit, Harris stated he saw defendant and Benny talking. Benny pulled

his cellular telephone out and made gestures with his hands. Around 40 to 50 seconds later,
Harris witnessed Benny step to the right and try to pull a gun from the right side. While Benny
was pulling out his gun, defendant pulled out his gun and began suiting. Benny turned around
and took about five to six steps before falling to the ground. Harris saw Benny’s cellular
telephone tumble to the ground going one way and a chrome or silver automatic handgun go 1
another way. Harris stated he was afraid and confused during his two statements to the police.
Additionally, Harris stated he was unwilling to give an affidavit at first because (1) he was upset
since he was serving time for something he did not do and (2) his counsel had advised him not to
make a statement so as to not incriminate himself. Harris decided to write the affidavit after
family members asked Harris to forgive defendant

-6-

119

In a January 2, 2019, written order, the circuit court denied defendant’s second

motion for leave to file a successive postconviction petition. The court found defendant did not
establish the prejudice prong. It noted Harris’s affidavit was not credible because Harris did not
come forth with his statement Benny had a gun until after he served his prison sentence. The
court also stated defense counsel'could not have talked with Harris since Harris had pending
charges when defendant’s case went to trial.
120

On March 18. 2019, defendant filed an untimely pro se notice of appeal. See Ill.

S. Ct. R. 651(d) (eff. July 1, 2017) (providing the procedure for appeals in postconviction
proceedings is in accordance with the rules governing criminal appeals); Ill. S. Ct. R. 606(b) (eff.
July 1,2017) (requiring the notice of appeal to be filed within 30 days of the final judgment
appealed). In May 2019, defendant filed a motion for leave to file a late notice of appeal, which
this court granted. On May 29, 2019, defendant filed a late notice of appeal in sufficient
compliance with Illinois Supreme Court Rule 606 (eff. July 1,2017). Thus, we have jurisdiction
of defendant’s appeal under Illinois Supreme Court Rule 651(a) (eff. July 1, 2017).
121
122

II. ANALYSIS
Defendant’s only claim is his trial counsel was ineffective for failing to interview

and call Harris as a witness. The State argues defendant cannot establish (1) cause because
Harris’s criminal case was pending when defendant’s trial took place and (2) prejudice because,
no gun was found at the scene and defendant testified he did not see a gun. When the circuit
court has not held an evidentiary hearing, this court reviews de novothe, denial of a defendant’s
motion for leave to file a successive postconviction petition. See People v. Gillespie, 407 Ill.
App. 3d 113, 124, 941 N.E.2d 441,452 (2010).
123

Section 122-1(0 of the Postconviction Act (725 1LCS 5/122-1(0 (West 2018))

-7-

provides the following:
“[0]nly one petition may be filed by a petitioner under this Article
without leave of the court. Leave of court may be granted only if a
petitioner demonstrates cause for his or her failure to bring the
claim in his or her initial post-conviction proceedings and
prejudice results from that failure. For purposes of this subsection
(f): (1) a prisoner shows cause by identifying an objective factor
that impeded his or her ability to raise a specific claim during his
or her initial post-conviction proceedings; and (2) a prisoner shows
prejudice by demonstrating that the claim not raised during his or
her initial .post-conviction proceedings so infected the trial that the
resulting conviction or sentence violated due process.”
Thus, for a defendant to obtain leave to file a successive postconvv. ,ion petition, both prongs'of
the cause-and-prejudice test must be satisfied. People v. Guerrero, 2012 IL 112020, f 15, 963
N.E.2d 909.

1124

With a motion for leave to file a successive postconviction petition, the court is

just conducting “a preliminary screening to determine whether defendant’s pro se motion for
leave to file a successive postconviction petition adequately alleges facts demonstrating cause
and prejudice.” People v. Bailey, 2017 IL 121450,

24, 102 N.E.3d 114. The court is only to

ascertain “whether defendant has made a prima facie showing of cause and prejudice.” Bailey,
2017 IL 121450, | 24. If the defendant did so, the court grants thwv;|efendant leave to file the
successive postconviction petition. Bailey, 2017 IL 121450,

If 25"'

24.

Defendant failed to make a prima facie showing- of cause. The “objective factor”

-8-

defendant identified was Harris’s reluctance to give an affidavit. In his October 2018 affidavit,
defendant admitted he was trying to get an affidavit from defendant since “their conviction” and
his motion for leave to file the successive postconviction petition indicated he did not raise the
claim earlier because of the laHc of the affidavit. However, section 122-2 of the Postconviction
Act (725 ILCS 5/122-2 (West 2018)) provides.“[t]he petition shall have attached thereto
affidavits, records, or other evidence supporting its allegations or shall state why the same are
not attached!” (Emphasis added.) Thus, defendant could have raised his claim in his original
petition and noted the affidavit was missing due to Harris’s reluctance. Thus, we do not find
Harris’s reluctance in providing an affidavit was an objective factor that impeded defendant from
raising his ineffective assistance of counsel claim in his original petition.
U 26

Defendant also failed to make a prima facie claim of prejudice. This court

analyzes ineffective assistanceiof counsel claims under the standard set forth in Strickland v.
Washington, 466 U.S. 668 (1.984). People v. Evans, 186 111. 2d 83, 93, 708 N.E.2d 1158, 1163
(1999). To obtain reversal under Strickland, a defendant must prove (1) his counsel’s
performance failed to meet an objective standard of competence and (2) counsel’s deficient
performance resulted in prejudice to the defendant. Evans, 186 Ill. 2d at 93, 708 N.E.2d at 1163.
To satisfy the deficiency prong of Strickland, the defendant must demonstrate counsel made
errors so serious and counsel s performance was so deficient that.counsel was not functioning as
“counsel” guaranteed by the sixth amendment (U.S. Const., amend. VI). Evans, 186 Ill. 2d at 93,
708 N.E.2d at 1163. Further, the defendant must overcome the strong presumption the
challenged action or inaction could have been the product of sound trial strategy. Evans, 186 Ill.
2d at 93, 708 N.E.2d at 1163. To satisfy the prejudice prong, the defendant must prove a
leasonable piobability exists that, but for counsel’s unprofessional errors, the proceeding’s result

-9-

would have been different. Evans, 186 III. 2d at 93, 708 N.E.2d at 1163-64. Additionally, we
evaluate counsel’s performance from counsel’s “perspective at the time, rather than through the
................

.....

..................... r .

...

...........

lens of hindsight.” People v. Perry, 224 Ill. 2d 312, 344, 864 N.E.2d 196, 216 (2007).

11 27

The State notes Harris’s case was still pending when defendant was tried, and

defendant does not dispute that fact in his reply brief. In his 2018 affidavit, Harris stated he was
advised by his counsel not to make a statement to avoid incriminating himself. Thus, even if
defendant’s trial counsel had tried to interview Harris before defendant’s trial, Harris would not
have made a statement on the advice of counsel. Thus, defendant did not make a prima facie
case of prejudice under Strickland based on counsel’s alleged failure to interview Harris.
Additionallv. defendant did not make a orima facie case of ineffective assistance of counsel
based on counsel’s failure to call Harris to testify.at defendant’s trial.. Trial counsel’s decision
not to call Harris was a product of sound trial strategy given Harris admitted in his affidavit he
gave two statements to the police that were contrary to his statements in the affidavit.

lf'28

Accordingly, we find the circuit court did not err by denying defendant’s October

2018 motion for leave to file a successive postconviction petition. .
III. CONCLUSION

1129
H 30

For the reasons stated, we affirm the Macon County circuit court’s judgment.

1131

Affirmed.

- 10-

AWFMDxsi

STATE OF ILLINOIS
CLERK OF THE COURT
(217) 782-2586

Appellate court
FOURTH DISTRICT
201 W. MONROE STREET
SPRINGFIELD, IL 62704

RESEARCH DIRECTOR
(217)782-3528

March 1, 2021
RE:

People v. Jones, Cornelius L.
General No.: 4-19-0166
Macon County
Case No.: 08CF1053

The Court today denied the petition for rehearing filed in the abo"?e entitled cause. The mandate
of this Court will issue 35 days from today unless a petition for leave to appeal is filed in the
Illinois Supreme Court.
If the decision is an opinion, it is hereby released today for publication.

Clerk of the Appellate Court
c:

Cornelius L. Jones
State's Attorney's Appellate Prosecutor, Fourth District

I copy!

FILED
JAN 02 2013

People of the State of Illinois
Plaintiff,
vs.
Cornelius L. Jones
Defendant

LOIS A. DURBIN
CIRCUIT CLERK

)
)
)
)
)
)
)
)

No. 08-CF-1053

'

ORDER DENYING LEAVE TO FILE SUCCESSIVE POST-CONVICTION PETITION
1.

That on January 15,2005 the defendant, Cornelius L. Jones was convicted of first degree
murder.

2. On February. 23,2009 the defendant was sentenced to 60 years in prison.

3.

That on October 28,2009 a mandate was issued by the appellate court affirming the trial court.

4. On March 18,2011 the defendant filed a post-conviction petition alleging ineffective assistance. .

5. On March 31,2011 the trial court dismissed the post-conviction petition.

6. That the appellate court affirmed the trial court dismissal of the post-conviction petition.

7. That on November 10,2014 the petitioner asked for leave to file a successive post-conviction
petition for ineffective assistance.

8. That on December 10,2014, the trial court dismissed the motion for leave to file a successive
post-conviction petition.
*

9. The appellate court affirmed the trial court's dismissal in February of 2017.

10. On October 10,2018, the petitioner asked for leave to file a successive post-conviction petition
alleging ineffectiveness for failing to interview the co-defendant Dorian Harris.

11. The court has reviewed the record and the petition along with the affidavits attached.

. 12. The Post-Conviction Act "generally contemplates the filing of only one post-conviction petition."
People v. Ortiz. 235 lll.2d 319,328 (2009).

ICOPYl

13. For a defendant to obtain leave to file a successive petition, both prongs of the cause and
prejudice test must be satisfied.

14. The defendant has attached an affidavit from Dorian Harris dated September 10,2018 stating
that Benny Topps was trying to pull a gun from his side when the defendant, Cornelius Jones,
shot him.

15. Dorian Harris did state he made two statements to police after the incident but that he was
afraid and confused. That if he was subpoenaed, he would have testified truthfully as to the
facts in the affidavit.

16. The court in reviewing the record, notes that co-defendant.Dorian Harris pled to aggravated
battery with a firearm for a negotiated 11 years and 10 months in the Illinois Department of
Corrections at 85%.

17. There is nothing in the record to show that the defense counsel for defendant Jones could have
spoken to co-defendant Harris since he had pending charges in the case when Jones' case went
to trial.

18. Co-defendant Harris had given a different story to the police and has just come forward with the
statement the victim, Topps, had a gun after serving his prison sentence.

19. The court does not find this affidavit to be credible based on if co-defendant Harris had come
forward with this version of the story at the time his case was pending it would have helped co­
defendant Harris' own case.

20. The evidence at trial established Dorian Harris was in the car and never got out. That Cornelius
Jones never saw the victim with a gun and that the victim was shot multipie times in the back.

21, The court does not find the second prong of the cause and prejudice test is present by showing
the claim not raised In his post-conviction proceeding so effected the trial that the resulting
conviction violated due process.

22. The court does not find the petitioner has established a claim of ineffective assistance of counsel
as required under Strickland v. Washington. 466 U.S. 668 (1984).

23. The court finds the petition’filed October 10,2018 has not established cause or prejudice or that
fundamental fairness required leave to grant a successive petition on any of the issues raised.

I copy!
!

The petition for leave to file a successive petition is denied. *
Entered: 1/2/19

___
Jeffrey's. Geisler
Associate Judge

;

CLERK DIRECTED to send a copy of the order to the defendant by certified mail within 10 days pursuant
to 725 ILCS 5/122-2.1{a)(2).
CLERK DIRECTED to send a Notice to Petitioner of Adverse Judgment pursuant to Illinois Supreme Court •
Rule 651(b).

I

l)cds\or\ o? SVftVe SufReme, C.ouRV^)ef\\jiba. ^e\llebJ

it

1
U

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312)793-6185

May 26, 2021
In re:

People State of Illinois, respondent, v. Cornelius L. Jones,
petitioner. Leave to appeal, Appellate Court, Fourth District
127101

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court Will issue to the Appellate Court on 06/30/2021.

Very truly yours

,s?

f1'
Clerk of the Supreme Court

■;

•i- h .

